No 19-383
In The
Supreme Court of the United States
JOSEPH RAIMONDO, on behalf of
himself and all others similarly situated,
Petitioner
v.

DENISE PAGE HOOD, U.S. District Chief Judge,
U.S. Employee et al.
Respondent(s)
PETITION FOR REHEARING
Joseph Raimondo! Pro Se
P.O. Box 330
Armada, MI. 48005
586-405-5365
Pro se^ Before this Court

RECEIVED
DEC 1 9 2019
OFFICE OF THE CLERK
SUPREME COURT, U.S.

d

1

Questions Presented
Petitioners questions asked three very
important Questions that flowed with the petition;
Questionl. Can the United States Federal
Government signal out citizens and demand
taxation and then deprive the citizens,
Constitutional Equal Protections because citizens
are Evangelical Christian’s, Conservative’s, or be
a Republican?
Question 2. Can Social Justice Sanction the U.S.
Constitution as means to war against; Evangelical
Christian’s, Conservative’s, and/or Republican’s
Equal Protection Rights, as a means to deprive
U.S. Constitutional Laws in the Courts?
Question 3. Can the Democrat National Committee
be sued if their usage of Social Justice Policy was
used as a means to deprive Constitutional Law, if it
can be shown, Social Justice was used and it
deprived Constitutional Protections under the law?
The answers to the first two questions should have
been unequivocally NO. The third should have
been unequivocally YES.

i

11

TABLE OF CONTENTS
Page
PETITION FOR REHEARING

1

THE CONSTITUTIONAL ISSUES
BEFORE THE COURT...................

2

PRIMARY FUNCTION OF THIS COURT

4

WHAT DESPERATE MEN CAN DO

5

INVAILDATING WEEKS v
UNITED STATES...............

6

PETITIONER SHOWED THIS COURT

9

OBJECTIVITY OF THE RAIMONDO
LITIGATION PROCESS

9

REASON FOR GRANTING
THE PETITION..................

13

CONCLUSION

14

CERTIFICATE OF PRO SE

15

Ill

TABLE OF AUTHORITIES CITED
United States v Price (383 U.S. 787)1966

PAGE
1,2

Weeks v. United States 461, 232 US 383
(1914),........................................................

1,6,7,8,9

Flora v. United States 246 F.2d 929
(1957) Case No. 5502; (Tenth Circuit)

3

Flora v. United States 357 U.S.63
(1958) No. 492 (U.S. Supreme Court)

3

Flora v. United States 362 U.S. 145
(i960) No. 492 (U.S. Supreme Court)

3

1
PETITION FOR REHEARING ARGUMENT
Pursuant to Supreme Court Rule 44, petitioner
respectfully petitions this Court for rehearing for a
reversal of order denying the writ of certiorari in
this case under United; States v Price (383 U.S.
787) 1966 supported by Weeks v. United States
461, 232 US 383 (1914).
The argument made to the lower courts for 2
decades. The cars those titles belonged to did not
run; they were valuable purchased project cars not
operational. Failure to transfer those titles was not
a chargeable violation of Mi. law. Police through
their search discovered the cars weren’t stolen. As
then as now, it’s only a $15 dollar fine for failure to
timely transfer a title providing the vehicle is not
being driven on a public roadway. Police seized,
forfeiting unlawfully those tiles to those cars in
violation of the 4th Amendment. Everything Mr.
Raimondo owned was used as collateral to buy
those cars for a coming business. The police
retaliation that followed severed all ability to earn
income making it impossible to mitigate the
damages from the poisonous warrant on April 6th
1998 caused.
When the Obama administration was before
this Court struggling to pass the affordable
healthcare bill, the, John Roberts Court intervened
on behalf of President Obama for the Democrats
and brought to the table! perhaps this could be a
tax.

2
The Courts overall handling of April 6th 1998
created this taxation dispute before this Court
today. “Denying petition 19-383 doesn’t make this
dispute over April 6th 1998 go away”. This petition
challenges the federal tax courts ability to demand
taxation, when the Circuit and District Courts of
the
6th and 8th Circuit are depriving Equal
Constitutional protections to Mr. Raimondo as an
Evangelical, Christian, Conservative Republican.
Under Article III Section 2 of the U.S.
Constitution, this Courts powers extends to this
Taxation, and Constitutional dispute before this
Court because this issue is affecting the nation.
Taxation is a law which must follow guidelines to
be legal. Depriving from any citizen any rights
protected under the 4th amendment is in violation
of the law. To knowingly deny the 4th amendment
creates under law a 14th amendment violation,
United States v Price (383 U.S. 787) 1966.
THE CONSTITUTIONAL TAXATION
ARGUMENT ISSUES BEFORE THE COURT
Mr. Raimondo paid a contested $3,800,
ordered by a U.S. tax court in 2015 plus, fines and
penalties that a-voided having to pay the $25,000
fine plus $44,000 judgement totaling $69,000 if Mr.
Raimondo presented defense in direct violation of
due process. The 8th Circuit relied on res judicata
invalidating the right to sue the IRS and tax judge
invalidating the 14th amendment due process
clause. The taxation issues before the tax Court
and 8th District Court was a byproduct of April 6th
1998 involving 4th amendment violations the U.S.

3
Constitution clarifies as violations when searching
and seizing private properties and refusal of
returning unlawfully seized private properties, it
was clarified in the complaints and appeal papers.
Under Flora v. United States 246 F.2d 929
(1957) Case No. 5502; (Tenth Circuit) Flora v.
United States 357 U.S.63 (1958) No. 492 (U.S.
Supreme Court) Flora v. United States 362 U.S.
145 (i960) No. 492 (U.S. Supreme Court) Mr.
Raimondo because the tax was paid has a right to
sue for the taking of that taxation.
On Nov. 22, 2019, this Court granted Tanzin
v. Tanvir for review of the 2nd Circuit Courts
rulings to review if there was a invalidation of the
law. The plaintiffs, Muslim men born outside the
U.S. lawfully inside the country, alleged that the
F.B.I placed the men’s names on the “No Fly List”
in retaliation for their refusal
to become FBI
informants claiming this burdened their exercise of
religion, in violation of “RFRA”.
The Court on Nov. 18, 2019 eluded granting a
review of petition 19-383 on behalf of Evangelical
Christian, Conservative, Republican citizens when
violated under the 4th amendment by police, and
governmental
employees
violating
our
Constitutional rights in a time in American history
when democrat law makers themselves are out of
control nation-wide promoting political hatred and
contempt
for
Evangelical
Christians,
Conservatives, and for Republicans.

4
This Court’s denial of petition 19-383
invalidates the 1st amendment, 4th amendment, 5th
amendment, 8th amendment, and 14th amendment
which strengthens and validates Mr. Raimondo’s
resolve in this taxation dispute, and further
validates, Mr. Raimondo’s being signaled out as an
Evangelical Christian, Conservative, Republican
before this Court..
It comes to Mr. Raimondo’s attention; Petition
19-383 does not sit well with respondents and this
Court is intimidated by respondents due to threats
made publicly by Democrat Senators, from
Congress, and from their constituents! if this Court
moves from the left to the right, they will stack this
Court with majority all liberal democrat judges.
This Court should be reminded. Liberal Democrats
created and caused April 6th 1998, and Liberal
Democrat Judges let it go unchallenged with
Democrat applied Social Justice Policy as its being
nationwide
against
Evangelicals,
used
Christians, Conservatives, and Republican’s civil
liberties.
PRIMARY FUNCTION OF THIS COURT
Article III Section 2. of the United States
Constitution, addresses the Federal Court powers
shall extend to all cases, in law and equity, arising
under this Constitution, the laws of the Untied
Stated, and treaties made, or which shall be made,
under their authority’-to all cases affecting
ambassadors, other public ministers and consuls, ;to all cases of admiralty and maritime jurisdiction;-

5
to controversies to which the United States shall be
a party! to controversies between two or more
states; between a state and the citizens of another
state; between citizens of different states;- between
citizens of the same state claiming lands under
grants of different states, and between a state, or
the citizens thereof, and foreign states, citizens, or
subjects.
This Court in 2019 must work as designed for
safe guarding and protecting, all citizens, equally
and fairly under our U.S. Constitution.
WHAT DESPERATE MEN CAN DO
This is a true story that dates back to Dec. 17,
2010, about a man who lived in Tunisia, in the
Middle East. Mr. Bouazizi was a victim of lost hope.
Mr. Bouazizi had a small fruit cart he sold fruits
from to provide for his family government seized
after he could not pay local police their payoffs.
Corruption influenced his government, much like
in Mr. Raimondo’s case and he to found no one in
government would help him escape his troubles,
police women “Fedia Hamdi” plague his life with.
Mr. Bouazizi one day with a small can of gas
went to a White government building in the middle
of one day and proud his gas over his body and set
himself on fire with a sign before him reading, “how
am I to support my family”.
The out- come from one desperate man set off
the Tunisian Revolution and Arab Spring against

6
autocratic regimes.
Mr. Raimondo presented Petition 19-383
asking for a Writ of Cert for review of a case
involving an unlawful search and seizure that led
to the destruction of my family, who were doing
nothing wrong on April 6th 1998. My Government
has refused to help me find away out of the
nightmare the Village of Armada & Macomb
County governments brought upon me as a family
man to seize my properties for their gain.
INVAILDATING WEEKS v UNITED STATES
In Weeks v. United States 461, 232 US 383
(1914), this Court ruled when police entered the
home and seized papers which were used to convict
him of a crime. This was done without a search
warrant. Weeks took action against the police and
petitioned for the return of his possessions.
The question asked of him: Did the search and
seizure of Weeks home violate the 4th amendment?
The Court held that the government’s refusal
to return Weeks possessions violated the 4th
Amendment. The facts of the case were police
entered the home of Weeks and seized papers
which were used to convict him of alleged crimes.
The 4th amendment declaring the right to be secure
against such searches and seizures would be of no
value whatsoever viewed as the first application of
what eventually became known as the exclusionary
rule.

7
Focus now turns to April 6th 1998. Police came
to Raimondo’s home accusing Raimondo of
operating a stolen car chop shop, no investigation
was conducted other than a claim police drove by
and seen a lot of old classic cars. Police concluded,
they would discover the needed crime so the real
estate properties and private properties could be
seized under the civil asset forfeiture law, granted
by state and federal governments for going after
criminals profiting from illegal crimes.
The facts are; when police arrived on April 6th
1998, after a 7 hour exhausting search, police found
no evidence of any crimes. It’s never been disputed
by police they failed to serve the warrant, & it’s
admitted by police, they seized legal papers
showing ownership to classic cars of great valve.
Police never disputed they failed to write a
tabulation itemized receipt for what was sized
being 25 titles. Police admit they refused to return
the legal papers back to Raimondo, and further
[Aldmitted, they forfeited those papers without
notice to defend for, the return of those papers.
Police claimed, they received a phone call from
a Mi. State employee who told police April 13th
1998 to go and re-seize those titles back from the
State of Mi. because Mr. Raimondo did not transfer
the titles in a timely manner since seized on April
6th 1998 and given to the state of Mi. on April 8th
1998 making it impossible to then transfer the
titles. Police then claim a State of Mi. Employee
called police again and told police, send the titles

8
back to their original state of origin because police
claimed there were no known cars matching up to
the tiles they were aware of.
Police admit while they refused to return those
papers, Police admit they took Raimondo before a
Macomb County District Court, not before the court
that issued the warrant, and prosecuted Raimondo,
admitting using the seized titles as evidence
against Raimondo; “when the titles were already
forfeited” and “couldn’t be produced but by hearsay
by police”. The exclusionary rule prevented using
such claims of evidence when it was unlawfully
seized yet used against the party in a court of law.
Mr. Raimondo was accused of engaging in a crime
there was no supporting evidence of other then the
word of police officers that violated their warrant
and were shifting the focus telling the Court Mr.
Raimondo was a criminal!
Does this Court not see what police did, and
were doing to Mr. Raimondo, or to my family as law
abiding citizens? To conclude police did not violated
the warrant on April 6th 1998, and their retaliation
had no part in the extortion of our home and land
for the needs of governments gain after 21 years of
litigating these same verified facts, evidence
supports to the Courts, over and over again. It’s
become a willful negligent disregard by the Courts
to ignore their duties under Article III Section 2. of
the United States Constitution.
Facts and evidence supports, April 6th 1998
was designed to seize real estate properties for a

9
preplanned development project, Macomb County
government advocated the Village of Armada for
through what was known as the PIP Committee to
create new & needed taxation. It’s all supported
and backed by presented evidence the Courts have
resisted in pattern of practice for the last 21 years.
PETITIONER SHOWED THIS COURT
Petitioner has shown unequivocally to the
Court that Respondents Baumgarten and
Meyerand presented signed court papers with
Fraud on the Court to the Original District Court
used to gain favorable summary judgment rulings.
Petitioners petition from page 24 through page 34,
showed Baumgarten violated the 4th amendment,
lied about, dates times and places, did this
knowingly, and signed a sworn affidavit to his
violations of the 4th amendment. Respondent
Meyerand showed he used that affidavit to justify
Baumgarten violating the 4th amendment. This
Court would be allowing the invalidation of case
facts, evidence has always supports.
OBJECTIVITY OF THE RAIMONDO
LITIGATION PROCESS
Judge Hood clearly made known in her Court
through the process of a hearing, Chief Judge
Lawrence Paul Zatkoff, had directed her in the
Raimondo’s litigations involving Macomb County.
Chief Judge Zatkoff held questionable objectivity
as a former Macomb County Circuit Judge as a
well-known Democrat having close politically and

10
personally ties to defendants before Judge Hood’s
Court.
Judge George Caram Steeh as well had
questionable objectivity as a former Macomb
County Circuit, Judge. He too was a well-known
Democrat with close politically and personally ties
to defendants before Judge Hood. This litigation
was tainted by questionable objectivity through
corruption & influence from Macomb County,
covering for itself by corrupting the court process in
this case. Every judgment must be invalid and
should be in question before this Court today of
questionable objectivity.
This Court today has Democrats demanding
Trump appointed Justices recuse themselves
because of the appearance of questionable
objectivity that will favor President Trump on
matters before this Court. Justice, Ruth Ginsburg
as it’s being released by news coverage appears to
have already recused herself do to her own political
criticism publicly made against the President.
Democrat law makers and the media claim
Justices Kavanaugh and Goursuch needing to
recuse themselves from the Trump matters before
this Court over questions of objectivity claiming
their appointment by President Trump brings
political and personal loyalty ties to the President
to this Court, that preventing them from judging
fairly, based upon the merits of the alleged claims
democrats bring to this Court against President
Trump.

11
Are Democrats not demanding no different
then what Mr. Raimondo is protesting before this
Court? Mr. Raimondo’s argument has always been,
former Macomb County democrat judges can’t have
judgment impute in my civil litigation case matters
against Macomb County democrats? Democrat
Judges disagreed! Today, Democrats argument to
this Court in the Trump related matters are
validating my argument because democrats are
directly telling Supreme Court Justices, you have
to recuse yourselves based upon your questionable
objectivity that will be bias and prejudice against,
Democrats.
Yet the Raimondo litigation matters,
Democrats would have the Court believing,
Democrat Judges in the lower Courts would never
do likewise to an Evangelical Christian
Conservative Republican bringing a case matter
against a fellow Democrat because. “Lower court
judges have higher standards of ethics and morals
and respect for the role of being judges then you
Supreme Court Justices have”.
Respondent Zatkoff and Steeh questionable
objectivity shielded and protected Macomb County
from a jury hearing, shielding, Macomb County
Police requested a warrant to search for a wrong to
seize real estate properties for the needs of Macomb
County officials advocating for new development.
Objectivity shielded from a jury when the original
planning for taking the real estate failed, private
properties unrelated to the warrant were then

12
seized from a private home not listed on the
warrant to be searched or seized.
Questionable objectivity further shielded from
the jury, In retaliation for going to higher
authority, police cut off Mr. Raimondo’s abilities to
make income creating opportunity for Macomb
County government to simply extorted the needed
real estate properties through their own Circuit
Court and District Courts with the help from law
enforcement, bankers, & officers of the Court with
the help of a memo alleging! Mr. Raimondo was a
criminal and simply took the needed land.
Questionable objectivity further shielded from
a jury! Throughout the ongoing federal litigations!
the real estate was handed over to waiting
developers to move forward on Macomb County’s
development demands. Questionable objectivity
further shielded from the jury! every party involved
in the conspiracy were democrat defendants before
the Court claiming “they didn’t know what Mr.
Raimondo was talking about” as Mr. Raimondo and
my family are made homeless while pleading before
Judge Hood’s Courts!
Today after 21 years of pleading for help for
my family! The Courts still can’t find a wrong
committed yet every fact plaintiffs presented in
this case has always been supported by real
evidence, the Court’s won’t review.
In the end, Federal, Judge Steeh from the
original District Court, former Circuit, Macomb

Qk

13
County Judge, applies res judicata shutting down
arbitrarily any review process into what Judge
Hood managed to accomplish for Macomb County.
This Court must see the questionable objectivity
having 2 former Democrat Macomb County judges;
directly taking part in a formal judicial litigation
process against, Macomb County who should have
recused themselves because of their loyalty
appearance of Macomb County as Democrats.
Petitioner presented a pro se “Capital
Petition” clearly telling this Court, I’m willing to
die before this Court, for my facts, before I’d pay
respondents any demands for back taxation!
REASON FOR GRANTING THE PETITION
The [Njarrative of the Courts judgments of
Mr. Raimondo’s facts for 2 decades has been
presented with consistent tunnel vision fighting
facts, standing firm, the presented Fraud on the
Court by Macomb County are the facts. The Courts
overall objectiveness for 21 years has protected
democrats and their behavior, such party loyalty
created petitioners “taxation litigation” resulting
from democrats ignoring the law, while demanding
taxation!
Respondents for 21 years have invalidated
petitioners civil rights, refused to give relief,
refused to review evidence into what Macomb
County and the Village of Armada did to me, and to
my family, and arbitrarily made, April 6th 1998
moot in law before the Courts. Petitioners a

14
“desperate man” wrongfully accused and convicted
with no hope. I’m pleading to this Court; grant my
petition & review this case, sparing the Raimondo
family, any further sufferings.
CONCLUSION
For the foregoing reasoning, this Honorable
Court should grant this petition and vacate the
order denying the writ of certiorari and restore this
case on the merits and docket the case for briefing.

Very Respect:

Submitted by;

JOSEPH RAIMONDO
23443 Prospect
P.O. Box 330
Armada, Mi.
586-405-5365
Pro se
Date: Dec. 4/2019

z

\

15
CERTIFICATE OF PRO SE
I hereby certify that this petition for
rehearing is presented in good faith and not for
delay.

PH RAIMONDO
PRO SE Petitioner
P.O. BOX 330
ARMADA, MI 48005
586 405-5365
Dated Dec. 4, 2019^

NO-19-383
CERTIFICATE OF PRO SE

Petitioner brings intervening circumstances showing political partisan bias had a
substantial controlling effect suppressing truth and facts on issues related to April
6th 1998 that invalidates the 4th amendment as well as the 14th amendment and other
involved Constitutional Laws. Those substantial controlling effects left unresolved;
created a valid taxation dispute resulting from how the Federal Courts over the last
20 years dealt with Mr. Raimondo’s Civil Rights claims as a pro se. Petitioner
believes this petition for rehearing to be meritorious, and hereby certifies that this
petition for rehearing is presented in good faith and it’s not for delay.
/
/

A
Joseph raimondo
PRO SE Petitioner
P.O. BOX 330
ARMADA, MI 48005
586 405-5365

Dated Dec. 23, 2019:

RECEIVED
DEC 3 1 2019
OFFICE OF THE CLERK
SUPREME COURT. U.S.

